                                                                  Issue Date
                                                                          December 5, 2007
                                                                  Audit Report Number
                                                                          2008-FW-1003




TO:         Justin R. Ormsby
            Director, Office of Public and Indian Housing, 6APH


FROM:       Gerald R. Kirkland
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Dallas Housing Authority, Dallas, Texas, Mismanaged its Portable
         Vouchers


                               HIGHLIGHTS

 What We Audited and Why

             As part of our strategic plan objective to assist the U. S. Department of
             Housing and Urban Development’s (HUD) efforts to reduce rental
             assistance overpayments, we audited the portability features of the Dallas
             Housing Authority’s (Authority) Housing Choice Voucher program
             (voucher program). Our objective was to determine whether the Authority
             managed and administered the portability features of its voucher program
             in accordance with HUD requirements.


 What We Found


             The Authority mismanaged its portable vouchers. The Authority could
             not identify its portable vouchers and attempted to collect portability
             payments from other housing agencies based on inaccurate, unreliable and
             altered records. It also collected $3.7 million from HUD based on this
             information. Further, the Authority violated HUD requirements by
           denying and discouraging families from using portability to transfer into
           its voucher program.

What We Recommend


           We recommend that the Director of the Fort Worth Office of Public and
           Indian Housing require the Authority to (1) reconcile its portability
           accounts; (2) establish and implement adequate and effective controls to
           ensure that the portability features of its voucher program operates in
           compliance with HUD requirements; (3) repay administrative fees
           associated with the portable vouchers since it did not administer its
           program in accordance with requirements; and (4) support or repay
           $3,789,254 that it requested from HUD.

           For each recommendation without a management decision, please respond
           and provide status reports in accordance with HUD Handbook 2000.06,
           REV-3. Please furnish us copies of any correspondence or directives
           issued because of the audit.

Auditee’s Response


           We discussed the findings with the Authority and HUD officials during
           the audit. We provided the draft report to Authority officials on
           October 24, 2007, for their comments and discussed the report with the
           officials at the exit conference on November 13, 2007. We requested the
           Authority respond by November 14, 2007. We granted the Authority’s
           request for additonal time to respond. The Authority provided its written
           comments to our draft report on November 19, 2007.

           The Authority agreed that improvements are needed and listed positive
           actions that it has taken or plans to take, but disagreed with some of our
           conclusions. The complete text of the auditee’s response, along with our
           evaluation of that response, can be found in appendix B of this report. The
           attachment to the Authority’s comments was not included in the report,
           but it is available for review upon request.




                                        2
                       TABLE OF CONTENTS

Background and Objectives                                  4

Results of Audit

Finding: The Authority Mismanaged its Portable Vouchers    5

Scope and Methodology                                     15

Internal Controls                                         16

Appendixes
   A. Schedule of Questioned Costs                        18
   B. Auditee Comments and OIG’s Evaluation               19




                                       3
                   BACKGROUND AND OBJECTIVES

In 1938, the Dallas city council established the Dallas Housing Authority (Authority) to
provide housing to low income persons. A five member board of commissioners
(board) 1 governs the Authority. The board appoints a president and chief executive
officer to administer the operations of the Authority. The Authority’s main office is
located at 3939 North Hampton Road, Dallas, Texas 75212.

The Authority administers the U. S. Department of Housing and Urban Development’s
(HUD) Housing Choice Voucher program (voucher program). Under the voucher
program, HUD pays rental subsidies so eligible families can afford decent, safe, and
sanitary housing. HUD provides housing assistance and administrative fees to housing
agencies to administer the program. The Authority received more than $141 million and
$145 million to operate its voucher program in 2005 and 2006, respectively.

The voucher program allows for mobility meaning a family in the program can move
throughout the country without losing their assistance. An “initial” housing agency
provides the family with a voucher. The family can take the voucher and lease a unit in
another “receiving” housing agency’s jurisdiction. HUD provides the housing assistance
and administrative funds to the “initial” housing agency. The “receiving” housing
agency either bills the “initial” housing agency for the participating family or absorbs the
family into its own voucher program. The term “portability” refers to the process of
leasing a voucher unit outside of the initial housing agency’s jurisdiction.

HUD has specific rules governing housing agency responsibilities related to portability
moves. These rules include billing deadlines, providing annual re-certification
notifications, transferring units when billing deadlines are not met, and providing timely
notification when billing arrangements are terminated. Further, the Authority must
establish internal controls to plan, organize, direct, and control program operations
including systems for measuring, reporting, and monitoring performance.

Our objective was to determine whether the Authority managed and administered the
portability features of its voucher program in accordance with HUD requirements. This
is the first of three planned reports on the Authority’s voucher program.




1
    The Mayor of Dallas appoints board members.


                                                  4
                                  RESULTS OF AUDIT


Finding: The Authority Mismanaged its Portable Vouchers
The Authority failed to administer its portable vouchers in accordance with HUD
requirements. The Authority could not identify its portable vouchers because its records
were inaccurate, unreliable and altered. Yet, the Authority used this information to
request portability payments from other housing agencies and to support its request to
HUD for $3.7 million to cover what it claimed were unreimbursed portability payments.
In addition, the Authority discouraged and denied families from transferring into its
program using portable vouchers. This occurred because the Authority’s management
did not establish and implement controls that ensured it maintained complete and
accurate records and that it properly administered the program. Unless the Authority
significantly improves its procedures, it cannot ensure that it will operate the portability
features of its voucher program in compliance with HUD requirements.



The Authority Could Not
Identify and Account for its
Portable Vouchers


                 The Authority could not identify and properly account for its portable
                 vouchers because it failed to establish and implement necessary controls
                 and procedures. Multiple departments handled portable vouchers;
                 however, the departments did not communicate effectively. The processes
                 undertaken by the different departments were duplicative and error prone.
                 The Authority did not bill for portable vouchers in a timely manner and its
                 books and records could not support what it billed or received from other
                 housing agencies. Further, it sent confusing forms to other housing
                 agencies and continued to bill them after absorbing families into its
                 voucher program even though it could not show with any reliability which
                 vouchers it absorbed.

                 The Authority Could Not Identify its Portable Vouchers

                 The Authority’s method of recordkeeping for its portable vouchers was
                 inefficient and ineffective. When requested to identify its 2005 and 2006
                 portable vouchers, the Authority provided several printed reports. 2 The



2
    The Authority could not provide these reports electronically. The printed copies of some of the reports
    exceeded 100 pages.


                                                    5
                 reports were not reliable, complete or accurate as required by HUD. 3 For
                 example, the reports contained

                         Families who left the program as far back as 1997;
                         Records that did not identify the initial housing agency for billing
                          purposes;
                         Inaccurate and unsupported cumulative and monthly billed and
                          received amounts;
                         Amounts that were obviously not monthly housing assistance
                          payment amounts; and
                         Previously absorbed families.

                 Fragmented Responsibilities over Portable Vouchers

                 The Authority’s leased housing, finance, and information systems
                 departments 4 each had roles in processing portable vouchers. The
                 Authority had no written procedures defining the departments’ roles and
                 responsibilities. For example, staff in the finance department stated the
                 leased housing department was responsible for billing while staff in the
                 leased housing department believed the responsibility belonged to the
                 finance department. It was not clear which department held the
                 responsibility which may have attributed to the Authority not billing for
                 portable vouchers in a timely manner.

                 In addition, both the information systems and leased housing departments
                 prepared HUD-required portability forms 5 but the forms were often
                 contradictory and there was no record of which form the Authority mailed
                 to the initial housing agency, if any. To complicate this process further,
                 the finance department often mailed out billing summaries that were
                 inconsistent with the portability forms prepared by the other departments.
                 In addition to being duplicative, this process led to inconsistencies,
                 uncertainty, and multiple errors.

                 The Authority Sent Confusing Portability Forms

                 HUD required the Authority to promptly notify the initial housing agency
                 whether it would absorb a family into its own voucher program or bill for
                 the voucher. 6 If the Authority chose to absorb a family into its voucher
                 program, the initial housing agency had no further obligations. If the
                 Authority elected to bill for a family, it had to notify the initial housing


3
    24 Code of Federal Regulations (CFR) 982.158.
4
    All three departments reported to different managers. The Authority had no centralized organization
    for processing portable vouchers.
5
    HUD requires housing agencies to bill using form HUD-52665, “Family Portability Information.”
6
    24 CFR 982.355(c)(5).


                                                   6
                 agency within 10 days of executing a housing assistance contract. 7 As
                 shown below, the Authority sent out portability forms that stated it was
                 both absorbing and billing for families.




        Figure 1: Excerpt from form HUD-52665, Family Portability Information.

                 The Authority Continued to Bill after Absorbing Families

                 The Authority frequently did not notify the initial housing agency when it
                 absorbed a portable voucher and continued to collect portability payments
                 from them. In these cases, the Authority was responsible for returning the
                 full amount of the overpayment 8 to the initial housing agencies. In
                 addition, in cases when the payments continued for at least three months,
                 the Authority should have notified the local HUD office of the date and
                 amount of reimbursement to the initial housing agencies.9 The Authority
                 did not do so.

                 The Authority Could Not Provide Accurate Reports of its Absorbed
                 Vouchers

                 The Authority could not provide consistent information showing which
                 portable vouchers it absorbed. For example, a report from its finance
                 department showed the Authority absorbed 730 families in 2005 while a
                 report from its leased housing department showed it absorbed 822 families
                 in 2005. In comparing two other reports from the finance department,
                 each showed different absorbed dates for the same families. The
                 Authority’s staff could provide no logical explanation for the
7
    The billing included the full housing assistance payment for the family’s unit and 80 percent of the
    ongoing administrative fee earned by the initial housing agency for that unit.
8
    Including the administrative fee.
9
    Public and Indian Housing (PIH) Notice 2004-12 paragraph 13 (extended by PIH Notice 2005-28 and
    PIH Notice 2006-25).


                                                   7
                  discrepancies or the actual number of vouchers it absorbed. In December
                  2006, the Authority absorbed more than 250 vouchers from an initial
                  housing agency. According to the director of that agency, staff from the
                  Authority contacted them in September 2007 to verify which families it
                  had absorbed. The Authority should have known which families it
                  absorbed into its voucher program.

                  The Authority should be able to readily identify the universe of its
                  portable vouchers and basic information such as the tenants’ names, initial
                  housing authorities, and payment amounts without manually searching
                  through its more than 16,000 paper tenant files.

     The Authority Attempted to
     Collect Portability Payments
     Based on Inaccurate
     Information


                  The Authority did not maintain accurate historical billing data for its
                  portable vouchers. As shown in figure 2, Authority employees changed
                  data in its accounting system with no audit trail documenting who made
                  the change, why or when the change was made. All finance employees
                  had the ability to change information in the Authority’s computer system
                  without an audit trail. 10




Figure 2: Excerpts from the Authority’s billing summaries. These billing summaries were for the
same family. Sometime between April 6, 2005 and June 20, 2007, Authority employee(s) altered
historical financial data from 2002.




10
     According to the Authority’s information systems vice president, this weakness has been corrected.


                                                     8
                 The Authority sent letters to numerous housing agencies demanding
                 payment for portable vouchers based on its inaccurate information. In the
                 letters, the Authority threatened to terminate assistance for families with
                 portable vouchers if the initial housing agencies did not pay the amounts
                 the Authority claimed they owed. While there were housing agencies that
                 owed the Authority, in most instances, the amounts the Authority
                 demanded were inappropriate because the initial housing agencies had
                 been making housing assistance payments, the Authority had not fulfilled
                 its administrative obligations, or the Authority’s records were inaccurate.
                 For example

                             The Authority sent a letter to Nacogdoches Housing Authority
                              reflecting that it owed $16,451 for 14 families. The Executive
                              Director at the Nacogdoches Housing Authority disagreed with
                              the amounts the Authority’s claimed was owed and provided
                              documentation showing it made regular monthly housing
                              assistance payments to the Authority for the families.

                             The Authority sent a letter to the Oklahoma City Housing
                              Authority (Oklahoma City) reflecting that it owed for
                              unreimbursed housing assistance payments for 16 families.
                              Oklahoma City’s reimbursement records showed that it had
                              paid $47,446 that was not reflected in the Authority’s records.

                             On February 28, 2005, HUD sent a letter on behalf of the
                              Authority to the Waterloo Housing Authority (Waterloo)
                              stating it owed $4,156 11 on behalf of one family. Waterloo
                              responded to HUD and the Authority with documentation
                              disputing the claim. In its response, Waterloo provided
                              evidence of monthly direct deposit payments for the family
                              starting in October 2002. Instead of recording the payments to
                              the family’s account monthly, the Authority recorded all the
                              payments from August 2004 through February 2005 in one
                              amount on April 4, 2005.

                             The Authority billed the Housing Authority of the City of
                              Huntsville, Alabama (Huntsville) for two families. A
                              Huntsville employee, a former Authority contractor responsible
                              for pursuing debts owed to the Authority by initial housing
                              agencies, disputed that the payment was owed. Huntsville
                              provided documentation to the Authority and HUD supporting
                              its position. The Authority collected $22,574 from HUD for
                              these two families.



11
     On its request to HUD, the Authority showed the amount outstanding as $5,964.


                                                   9
                   In some instances, the Authority attempted to correct its billing problems
                   by issuing refunds to initial housing agencies. However, the refunds
                   tended to compound the confusion because the Authority refunded
                   amounts based on balance figures that included unexplained adjustments
                   and altered amounts. Therefore, the Authority did not know whether it
                   refunded the correct amount and other housing agencies could not
                   reconcile the refund amounts to their accounts.

     The Authority Could Not
     Support its Request for $3.7
     Million it Received from HUD

                   On March 4, 2005, the Authority requested that HUD approve the release
                   of more than $3.7 million from its annual contributions contract (ACC)
                   reserves 12 as reimbursement for rental payments made on behalf of
                   portable families. On May 20, 2005, HUD approved the Authority’s
                   request noting that “the documentation submitted on behalf of [the
                   Authority] demonstrates the [Authority] failed to bill other [housing
                   agencies] in the amount of $3,789,254.63 for portable vouchers for 2001,
                   2002, and 2003. Since the program reserves that are available to [the
                   Authority] are pre-2003, the use of the reserves for this purpose is
                   permissible under the statute: therefore, the request is approved.”
                   Although HUD approved the payment, it relied upon inaccurate
                   information provided by the Authority.

                   The records the Authority provided us did not support the $3.7 million in
                   unreimbursed rental payments. On several occasions during the audit, the
                   Authority provided different documents to support its request; however,
                   the documents did not reconcile to the amounts claimed. One set of
                   reports the Authority provided as support for the request only totaled $1.4
                   million. 13

                   Following are examples of the Authority’s unsupported claims included in
                   its request to HUD:

                                A family transferred its portable voucher to the Authority on
                                 June 2, 2003. On multiple occasions in July and August 2003,
                                 the initial housing agency notified the Authority that it would
                                 not make payments 14 for the family because it had terminated
                                 them due to eviction for unpaid rent. After the notification, the

12
      HUD established and maintains an unfunded ACC reserve account for the Authority’s voucher
      program. The amount in the ACC reserve account is determined by HUD. HUD may approve
      payments for the Authority from available amounts in the account.
13
      As with other reports provided by the Authority, these were not reliable, complete or accurate.
14
      24 CFR 982.353(b).


                                                      10
                               Authority entered into a housing assistance contract on
                               December 10, 2003, on the family’s behalf. In its request to
                               HUD, the Authority sought and received $32,707 for this
                               family when it never should have.

                              An initial housing agency notified the Authority on August 11,
                               2004, that it would not pay portability because the Authority
                               failed to conduct a required annual reexamination for the
                               family as required. 15 In its request to HUD, the Authority
                               sought and received $21,351 for unreimbursed rental payments
                               it paid for this voucher.

                  Further, the Authority collected duplicate payments from various housing
                  agencies for the same amounts reimbursed by HUD. The Authority had
                  not reconciled the payments more than two years after receiving the
                  reimbursement from HUD. Nor did it return the duplicate payments to
                  HUD. The Authority provided two reconciliations dated June 19, 2007,
                  and June 27, 2007. In the reconciliations, the Authority applied amounts
                  to accounts that were more than the reimbursements it requested from
                  HUD. For example, in its request the Authority asked to be reimbursed
                  $10,507 for payments made on behalf of a portable family, but in its
                  records, it applied $14,455 to this account. There were multiple accounts
                  handled in this manner. The Authority’s June 27, 2007 reconciliation
                  showed it owed HUD a refund of $1,047,267. 16 However, since staff
                  changed records without support or approval, the reconciliations were
                  unreliable.

                  Further, as illustrated in figure 3 below, during the audit, finance
                  department staff began applying the HUD reimbursement to families not
                  included in its original request.




15
     24 CFR 982.355(c)(9).
16
     As of July 17, 2007, the refund request had not been processed.


                                                    11
                                           Original     June 19, 2007    June 27, 2007
                                           Request      reconciliation   reconciliation      Difference

                  Amount from
                  HUD posted on
                  May 20, 2005          $3,789,254         $3,789,254        $3,789,254                 $0
                  Amounts
                  received from
                  other housing
                  agencies for the
                  same families
                  included in the
                  HUD request.
                                                 ----      $1,613,492        $1,621,534              $8,042
                  Additional
                  amounts applied
                  against HUD
                  payment for
                  families not on
                  the original
                  HUD request.                   ----        $436,163          $574,267        $138,104
                  Number of
                  families                      1143             1143               1268               125
                 Figure 3: Information from the Authority’s reconciliation reports. The Authority
                 posted the HUD payment on May 20, 2005, and was still working on a reconciliation
                 of the payment in June 2007.

                 HUD approved the release of the ACC reserves based on the Authority’s
                 assertions. In approving the release of funds, HUD expected that the
                 Authority would make the necessary improvements to its program by
                 October 2005. 17 The Authority did not implement new processes or
                 procedures to correct the deficiencies. The Authority should support its
                 request or repay HUD $3,789,254.

     The Authority Discouraged and
     Denied Families from
     Transferring into its Voucher
     Program

                 In violation of HUD requirements, 18 the Authority denied and discouraged
                 families from transferring into its voucher program using portable
                 vouchers. HUD required the Authority to administer assistance for


17
      HUD memorandum dated July 5, 2005.
18
      24 CFR 982.301(a)(2).


                                                 12
                  portable families. 19 The Authority provided letters to families and other
                  housing agencies advising that it “is not accepting nor processing any
                  additional portable vouchers until further notice.” The letter included a
                  listing of other local housing agencies that administered the housing
                  choice voucher program.

                  The Authority claimed that it had a verbal agreement with neighboring
                  housing agencies to accept the ports that it refused. However, the
                  Authority did not provide evidence of any such agreement(s). In addition,
                  HUD received complaints from several housing agencies concerning the
                  Authority’s portability practices. HUD prohibited the Authority from
                  discouraging or denying families the use of portability under the voucher
                  program. The Authority’s records indicate it did so, regardless of any
                  unwritten understanding(s).

     Conclusion


                  While the Authority has recently taken positive steps to improve
                  operations, during the audit period, the Authority failed to administer its
                  portable vouchers in accordance with HUD requirements. The Authority
                  could not identify its portable vouchers because its records were
                  inaccurate, unreliable and altered. Yet, based on this information the
                  Authority requested portability payments that it was not owed from other
                  housing agencies and to support its request a $3.7 million from HUD,
                  which HUD paid. In addition, the Authority discouraged and denied
                  families from transferring into its program using portable vouchers. Since
                  at least 2002, HUD and the Authority’s own independent public
                  accountant have provided reports to the Authority outlining the
                  Authority’s systemic internal control weaknesses. However, the Authority
                  has not corrected the weaknesses. Unless the Authority significantly
                  improves its procedures, it cannot ensure that it will operate the portability
                  features of its voucher program in compliance with HUD requirements. In
                  addition, since the Authority failed to adequately manage or account for its
                  portable vouchers, it should repay HUD the administrative fees it
                  collected. 20




19
      24 CFR 982.355(a).
20
      24 CFR 982.152(d)


                                               13
Recommendations

          We recommend the Director of the Fort Worth Office of Public and Indian
          Housing require the Authority to

          1A. Reconcile its portability accounts so that it accurately bills and
              accounts for its portable vouchers. The Authority should collect
              amounts owed from housing agencies in arrears and refund amounts
              improperly collected.

          1B. Establish and implement adequate and effective controls to ensure
              that the portability features of its voucher program operates in
              compliance with HUD requirements and common business practices.

          1C. Repay to HUD administrative fees associated with the portable
              vouchers since it did not administer its program in accordance with
              requirements.

          1D. Support or repay to HUD $3,789,254 that HUD paid it from ACC
              reserves.




                                      14
                      SCOPE AND METHODOLOGY

Our objective was to determine whether the Authority managed and administered the
portability features of its voucher program in accordance with HUD requirements. To
accomplish our objective we

   •   Reviewed relevant criteria;
   •   Interviewed HUD and Authority personnel regarding the Authority’s portability
       operations;
   •   Analyzed and evaluated Authority portability data;
   •   Reviewed portability data from HUD’s Public and Indian Housing Information
       Center;
   •   Reviewed correspondence between the Authority and other housing agencies;
   •   Interviewed personnel from other housing agencies; and
   •   Reviewed family billing records.

While we were able to evaluate the program, the Authority could not identify or provide
reliable information about families that held portable vouchers during 2005 and 2006.
The Authority did not know the universe of portable vouchers during the audit period or
the dollar amounts associated with them. Based upon the conditions of the records, the
lack of internal controls, and the ability to alter records without support or audit trail, it
may be very difficult for the Authority to determine the universe and account balances of
portable vouchers during the audit period.

To select a sample of portable vouchers for review, we used a report generated by the
Authority and provided to HUD on March 4, 2005. The Authority used this report to
support its request for more than $3.7 million for reimbursement of rental payments for
portable vouchers not paid by other housing agencies. According to documentation
provided, the Authority neglected to bill other housing agencies for more than $3.7
million. We used the March 4, 2005, report for our sample selection because it was the
same report HUD used to approve the request for reimbursement. Using computer audit
software, we selected a random sample of 63 families from the list of 1,143 families on
the report to form our conclusions.

We conducted the audit in accordance with generally accepted government auditing
standards. The audit covered the period from January 2005 through December 2006. We
performed audit fieldwork at the Authority’s administrative offices in Dallas, Texas, from
June 2007 through September 2007.




                                              15
                           INTERNAL CONTROLS

 Internal control is an integral component of an organization’s management that provides
 reasonable assurance that the following objectives are being achieved:

            •   Effectiveness and efficiency of operations,
            •   Reliability of financial reporting, and
            •   Compliance with applicable laws and regulations.

 Internal controls relate to management’s plans, methods, and procedures used to meet its
 mission, goals, and objectives. Internal controls include the processes and procedures for
 planning, organizing, directing, and controlling program operations. They include the
 systems for measuring, reporting, and monitoring program performance.



   Relevant Internal Control


                We determined the following internal controls were relevant to our audit
                objectives:

                   •   Policies and procedures meant to reasonably ensure that
                       certifications and billing for portable vouchers met program
                       requirements.
                   •   Policies and procedures meant to reasonably ensure that
                       maintenance of records for portable families met program
                       requirements.
                   •   Policies and procedures meant to reasonably ensure that portability
                       features of its voucher program were properly managed.

                We assessed the relevant controls identified above.

                A significant weakness exists if management controls do not provide
                reasonable assurance that the process for planning, organizing, directing,
                and controlling program operations will meet the organization’s
                objectives.

Significant Weaknesses


                As discussed throughout the report, we identified significant weaknesses in
                the controls identified above. The Authority did not have policies and
                procedures meant to ensure that its certifications and billings met program



                                             16
requirements, its records were properly maintained, or the portability
features of its voucher program were properly managed.

Since at least 2002, HUD and the Authority’s independent public
accountant have provided reports to the Authority outlining the
Authority’s systemic internal control weaknesses. However, the Authority
has not corrected the weaknesses.




                              17
                               APPENDIXES

Appendix A

            SCHEDULE OF QUESTIONED COSTS




                     Recommendation
                         number              Unsupported 1/

                            1D                     $3,789,254




1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured
     program or activity when we cannot determine eligibility at the time of audit.
     Unsupported costs require a decision by HUD program officials. This decision, in
     addition to obtaining supporting documentation, might involve a legal
     interpretation or clarification of departmental policies and procedures.




                                        18
Appendix B

     AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




Comment 1




                        19
Comment 1




            20
21
22
Comment 1




Comment 2




            23
Comment 3




            24
Comment 4




Comment 5




Comment 6




            25
Comment 7




Comment 8




            26
Comment 9




Comment 10




             27
Comment 11



Comment 12




             28
Comment 13




Comment 14




             29
                OIG Evaluation of Auditee Comments

Comment 1   The conclusions reached were based upon the evidence reviewed and
            analyzed during our audit. Much of this information was supplied by
            the Authority through data and interviews with staff. As required by
            auditing standards, the report language is clear and concise and the
            conclusions are supported by the evidence obtained during the audit.
            Generally accepted government auditing standards required us to
            assess the reliability of data used as support for conclusions or
            recommendations. As detailed in the finding, we concluded that the
            Authority’s records were not complete, accurate or reliable.

            While we agree with the Authority that its internal controls were
            inadequate, it is management’s responsibility to implement an
            adequate system of internal controls to include establishing written
            policies and procedures. Management’s failure to establish a reliable
            control environment led to the deficiencies identified in the finding.
            For example, the lack of effective controls allowed staff to
            inappropriately change recorded data, without supervisory approval,
            in seventy-three percent of our sample. Given the significance and
            extent of the deficiencies, we concluded that the Authority
            mismanaged its portable vouchers. Thus, the subject of the report is
            appropriate.

            We modified some of the terminology in the report.

Comment 2   We maintain our position. We initially planned to review a statistical
            sample of all portable vouchers during our review period. On
            multiple occasions throughout the audit, we asked the Authority to
            provide a listing of its portable vouchers for the audit period. The
            Authority could not do so. Thus, we revised our audit scope and
            methodology to review a sample of the vouchers the Authority
            claimed supported its request for payment of more than $3.7 million
            from HUD. As stated in its response, the Authority would need to
            manually go through documents in all of its tenant files to identify its
            portable vouchers. Considering that the Authority has more than
            16,000 vouchers, this would be a significant undertaking. As a basic
            management control and to facilitate billings and collections, the
            Authority should want to know the tenant names, initial housing
            authorities, payment amounts, and other relevant information about
            its portable vouchers without manually searching through all of its
            tenant files.

Comment 3   While it is true a business model such as the one the Authority
            described in its response can be effective, communication and
            cooperation between departments is essential to such an operation.



                                    30
            HUD, Authority staff, and the Authority’s independent public
            accountant acknowledged and discussed historical communication
            problems between the leased housing and finance departments.

            The Authority states that case managers followed HUD guidance on
            forms and a PIH notice; however, the Authority did not have written
            instructions telling staff to follow the HUD guidance. Further, the
            Authority’s information services staff told us that they also operated
            under verbal instructions, which sometimes conflicted with HUD
            requirements. In addition, contradictory to the Authority’s response,
            information services staff told us that they did not mail out the HUD-
            52665 forms.

Comment 4   We acknowledge steps the Authority has taken to address its internal
            control weakness. However, the Authority must implement
            procedures that ensure accurate information is maintained both with
            the current software and any future software. Ensuring the accuracy
            of computer generated information is a basic, but vital control.

Comment 5   The Authority’s comment recognizes that its request for more than
            $3.7 million included amounts for which it received payments from
            the initial housing agencies. Rather than applying amounts owed by
            other housing agencies, the Authority should have refunded HUD
            since it should not have requested payment from HUD for these
            vouchers. The Authority’s agreement to reimburse unsupported
            amounts is appropriate. However, the funds should be reimbursed to
            HUD and placed in the ACC reserve account.

Comment 6   See comment 2 evaluation.

            As stated in the finding, information the Authority provided to
            identify its absorbed vouchers was contradictory and the Authority’s
            staff could not explain or provide documentary evidence that
            explained those contradictions or definitively showed which vouchers
            were absorbed.

Comment 7   Documents the Authority provided included copies of letters sent to
            more than 200 initial housing agencies demanding portability
            payments it claimed they owed. Several of the letters contained
            excerpts from the reports that we found to be inaccurate. In addition,
            the billing summaries used to support the reports often had
            unsupported changes and adjustments. The correspondence we
            reviewed from initial housing agencies overwhelmingly disputed the
            Authority’s claims.




                                    31
Comment 8    We maintain our position that the Authority could not support its
             request for $3.7 million. During the audit, we reviewed the
             documentation provided by the Authority and spoke with HUD
             officials. HUD's review did not include tracing the amounts listed to
             supporting documentation. Further, the Authority has agreed in
             comments 4 and 5 that its records contained errors and it received
             payments from agencies for vouchers it absorbed. We have discussed
             our conclusions with HUD.

Comment 9    We removed this section from the finding.

Comment 10   HUD prohibited the Authority from discouraging or denying families
             the use of portability under the voucher program. The Authority’s
             records indicate it did so, regardless of any unwritten
             understanding(s). Further, these practices occurred before Hurricane
             Katrina.

Comment 11   We acknowledge steps the Authority intends to take to address this
             internal control weakness.

Comment 12   We are encouraged to see the establishment of standards policy
             statement. Further, the implementation of written procedures and
             proper training of staff are major steps toward resolving systemic
             weaknesses. The development and implementation of policies and
             procedures should further improve weaknesses.

Comment 13   The OIG neither agrees nor disagrees with the Authority’s assertions
             regarding its administration of other areas of its voucher program
             because we did not review those areas as part of this audit.

             The OIG is tasked with reporting the conditions and making
             recommendations for corrective actions. In this case, the
             recommendation is based on the poor program administration. HUD
             has the authority to reduce or offset the Authority’s administrative fee
             if it failed to perform administrative responsibilities correctly or
             adequately. HUD will make the determination, with OIG
             concurrence, as to the extent of any amounts required to be repaid.

Comment 14   We acknowledge steps the Authority intends to take to resolve the
             recommendation. Any reimbursements should be to HUD.




                                     32
